SIGAR                                     Special Inspector General for
                                           Afghanistan Reconstruction




                                                    SIGAR 14-24 Inspection Report



                  BALKH EDUCATION FACILITY: BUILDING
                  REMAINS UNFINISHED AND UNSAFE TO
                  OCCUPY AFTER NEARLY 5 YEARS




                                                                JANUARY
                                                               2014
SIGAR 14-24-IP/Balkh Education Facility
SIGAR
                                                     January 2014
                                                     Balkh Education Facility: Building Remains Unfinished and Unsafe to
                                                     Occupy after Nearly 5 Years


                                                     SIGAR Inspection 14-24-IP
Special Inspector General for
Afghanistan Reconstruction
                                                   WHAT SIGAR FOUND
WHAT SIGAR REVIEWED                                The Balkh education facility has not been completed or constructed in
                                                   accordance with contract requirements and technical specifications. As a
In May 2008, the U.S. Agency for                   result, nearly 5 years after construction began, the U.S. Agency for
International Development (USAID)                  International Development (USAID) is unable to transfer the facility to
entered into a Participating Agency                Afghan authorities. USAID and the U.S. Army Corps of Engineers identified a
Program Agreement (PAPA) with the U.S.
Army Corps of Engineers (USACE) to                 number of repairs that need to be made to address, among other things, a
award and oversee the construction of a            leaking roof, defective electrical wiring, and an improperly sloped terrace
number of “Faculties of Higher                     roof. USAID technical office and contracting staff have developed a revised
Education” to serve as teacher training            procurement strategy to contract out this remaining construction and
facilities in Afghanistan. Beginning in            repair work, which they expect to be completed by mid-2014.
February 2009, USACE awarded three
contracts under the PAPA for the                   SIGAR identified some additional deficiencies requiring repair that are not
construction of facilities in three northern       currently part of USAID’s expected procurement action. For example, sewer
provinces, including a facility in Mazar-e-        lines crossing above water lines are not encased in concrete and exterior
Sharif in Balkh province. In January               stairway dimensions are not compliant with required International Building
2013, USAID terminated the PAPA and                Code specifications. SIGAR also found that USAID lacks building roof and
took over responsibility for completing
                                                   septic tank structural calculations, an analysis of which is critical to ensure
these facilities.
                                                   that the roof and septic tank as constructed will support the loads imposed
For this inspection, we assessed the               on them. The absence of such calculations raises potential health and
project site in Balkh province to                  safety concerns because USAID lacks adequate assurance that these
determine whether (1) construction was             structures will not collapse at some point in time.
completed in accordance with contract
requirements and applicable construction           SIGAR also found that, although the Balkh facility was not approved for
standards, and (2) the facilities were             occupancy, Afghan faculty and students had been using the facility.
being used as intended and maintained.             Following a briefing on SIGAR’s inspection, USAID instructed the Afghan
                                                   Ministry of Higher Education to vacate the facility pending final repairs and
SIGAR conducted its work in Kabul,                 the building’s official transfer to Afghan authorities. According to USAID
Afghanistan, and at the Balkh site from
                                                   officials, they intend to issue an Implementation Letter to the Afghan
March through November 2013, in
accordance with the Quality Standards              Government at project turnover, which will describe the level of operation
for Inspection and Evaluation published            and maintenance support for the facility that the government is expected
by the Council of the Inspectors General           to provide. Correspondence from the Ministry of Higher Education shows it
on Integrity and Efficiency.                       has committed to providing financial support for the Faculties of Higher
                                                   Education.

WHAT SIGAR RECOMMENDS
To help ensure that the Balkh education facility meets the needs of faculty and students and all applicable safety
requirements, and to protect the U.S. government’s investment, we recommend that the USAID Mission Director (1)
expand the scope of work for the pending procurement action to address the deficiencies identified by SIGAR; and (2)
develop roof and septic tank structural calculations based on the construction documents, progress photos, and quality
assurance reports, to determine whether these building components comply with the required 2003 International Building
Code and adequately protect life and property, and report back to SIGAR within 90 days with the results of this analysis
and any planned corrective actions. In commenting on a draft of this report, USAID concurred with the first
recommendation. USAID did not concur with the second recommendation, citing, in part, the receipt of new information
from USACE not previously provided to SIGAR. SIGAR will obtain and review this new information to determine whether it
satisfies the intent of the second recommendation. USAID’s complete comments and SIGAR’s responses to them are
reproduced in appendix II.
       For more information contact: SIGAR Public Affairs at (703) 545-5974 or sigar.pentagon.ccr.mbx.public-affairs@mail.mil
January 22, 2014

General Lloyd J. Austin III
Commander, U.S. Central Command

Lieutenant General Thomas P. Bostick
Commanding General and Chief of Engineers
U.S. Army Corps of Engineers

Dr. Rajiv Shah
Administrator
U.S. Agency for International Development

Mr. William Hammink
USAID Mission Director to Afghanistan


This report discusses the results of SIGAR’s inspection of the USAID-funded Faculty of Higher
Education facility in Mazar-e-Sharif, Balkh province. This report recommends that the USAID
Mission Director (1) expand the scope of work for the pending procurement action to address
the deficiencies identified by SIGAR; and (2) develop roof and septic tank structural
calculations based on construction documents, progress photos, and quality assurance
reports, to determine whether these building components comply with the required 2003
International Building Code and adequately protect life and property, and report back to SIGAR
within 90 days with the results of this analysis and any planned corrective actions.
In commenting on a draft of this report, USAID concurred with our first recommendation, but
did not concur with our second recommendation. USAID stated that it received new
information on January 9, 2014, from USACE regarding approved structural calculations not
previously provided to SIGAR, despite numerous requests for this information during the
course of our inspection. USAID also noted that its professional engineer found no compelling
reason to conclude that new structural calculations should be performed—a task USAID
believes would be very time consuming and costly. Finally, USAID stated that SIGAR had not
presented sufficient evidence to suggest that the Balkh facility has shown any signs that it
lacks structural integrity. We request that USAID provide us the new information it received
from USACE, which we will review to determine whether it fully satisfies the intent of our
second recommendation. USAID’s complete comments and our responses are in appendix II.
SIGAR conducted this inspection under the authority of Public Law No. 110-181, as amended,
the Inspector General Act of 1978, as amended; and in accordance with the Quality Standards
for Inspection and Evaluation, published by the Council of the Inspectors General on Integrity
and Efficiency.




John F. Sopko
Special Inspector General
 for Afghanistan Reconstruction
                                             TABLE OF CONTENTS


Background .................................................................................................................................................................. 1

Balkh Facility Was Not Constructed in Accordance with Contract Requirements, and Deficiencies Remain to be
Corrected ...................................................................................................................................................................... 3
Balkh Facility Is Currently Unused Due to Its Unfinished Condition ......................................................................... 5

Conclusion.................................................................................................................................................................... 7

Recommendations....................................................................................................................................................... 7

Agency Comments ....................................................................................................................................................... 7

Appendix I - Scope and Methodology.......................................................................................................................... 8

Appendix II - Comments from the U.S. Agency for International Development ........................................................ 9

Appendix III - Acknowledgements ............................................................................................................................. 13


PHOTO

Photo 1 - Balkh Education Facility .............................................................................................................................. 1
Photo 2 - Paint Peeling off Classroom Ceiling ............................................................................................................ 4

Photo 3 - Improvised Dam on Sloping Roof Terrace .................................................................................................. 4
Photo 4 - Access Point to Septic Tank ........................................................................................................................ 4




ABBREVIATIONS & ACRONYMS

PAPA                       Participating Agency Program Agreement

RFTOP                      Request for Task Order Proposal
USACE                      U.S. Army Corps of Engineers

USAID                      U.S. Agency for International Development




SIGAR Inspection 14-24-IP/Balkh Education Facility                                                                                                                       Page i
In 2008, the U.S. Agency for International Development (USAID) began planning the construction of what it
calls “Faculties of Higher Education” 1 as part of the agency’s support for higher education efforts in
Afghanistan. To that end, USAID provided approximately $17.1 million to the U.S. Army Corps of Engineers
(USACE) under a May 2008 Participating Agency Program Agreement (PAPA) 2 to construct 16 facilities across
Afghanistan to prepare students to become teachers at the secondary education level in a variety of
disciplines. Each facility was to be built from a standard design consisting of a two-story building with 10
classrooms, 4 laboratories, a library, and an administration room.
For this inspection, we focused on the Mazar-e-Sharif facility in Balkh province (see photo 1). Specifically, we
assessed whether (1) construction was completed in accordance with contract requirements and applicable
construction standards, and (2) the facility was being used as intended and maintained.
We conducted our work in Kabul,
                                              Photo 1 - Balkh Education Facility
Afghanistan, and at the Balkh site from
March through November 2013, in
accordance with the Quality Standards for
Inspection and Evaluation, published by the
Council of the Inspectors General on
Integrity and Efficiency. The engineering
assessment was conducted by a
professional engineer in accordance with
the National Society of Professional
Engineers’ Code of Ethics for Engineers. We
made visits to the Balkh site in March and
October 2013 to conduct our inspection. We
also interviewed USAID, USACE, and Ministry
of Higher Education officials in Kabul and
Mazar-e-Sharif and examined program           Source: SIGAR, March 4, 2013.
documents in both locations. Appendix I
provides more detail on our scope and methodology.


BACKGROUND

In February 2009, USACE awarded a $2.9 million firm fixed-price contract to Mercury Development (Mercury),
an Iraqi company, to build the higher education facilities in Mazar-e-Sharif (Balkh province), Sheberghan
(Jawzjan province), and Meymaneh (Faryab province). 3 USACE experienced a number of performance issues
with this contractor, as detailed in SIGAR’s July 2013 report on the Jawzjan site in Sheberghan. 4 As noted in
our report, USACE issued 62 deficiency and performance notices to Mercury beginning in July 2009 involving



1USAID uses the term “Faculties of Higher Education” for these projects. For purposes of this report, we refer to these
construction projects as “facilities.”
2 A Participating Agency Program Agreement is a type of interagency agreement that USAID uses when another federal

agency is expected to implement a program with relatively little day-to-day oversight or direct supervision by USAID. One of
the stipulations of this type of agreement is that program functions will be primarily performed at a place other than USAID.
3 We reported on the status of construction at the Sheberghan facility in July 2013, See Sheberghan Teacher Training

Facility: U.S. Army Corps of Engineers Paid Contractors and Released Them from Contractual Obligations before
Construction was Completed and without Resolving Serious Health and Safety Hazards, SIGAR Inspection 13-9, July 17,
2013. We will not report on the status of the facility in Faryab province because security conditions prevent a visit to this
location.
4   SIGAR Inspection 13-9, July 17, 2013.



SIGAR Inspection 14-24-IP/Balkh Education Facility                                                                       Page 1
work at all three facilities. Among other items, these letters covered such problems as electrical deficiencies,
non-payment to subcontractors, reporting more workers than were actually on site, safety violations, and lack
of qualified and trained safety managers to oversee on-site activities. In addition, quality assurance reports
during September of 2011 showed the contractor’s workforce had been reduced significantly, and on many
days had no presence on the site at all. Because of these as well as other issues, USACE chose to de-scope the
remaining work from the contract. It terminated the contract on November 19, 2011. The contract close-out
document stated that all work associated with the contract was physically completed and all issues had been
resolved.
After Mercury’s departure, USACE awarded a set of contracts to Zafarkhaliq Construction Company
(Zafarkhaliq), an Afghan firm, to finish the work at each facility. 5 However, after beginning work, Zafarkhaliq
identified additional electrical deficiencies, which prompted a request to increase the project scope
significantly. 6 Zafarkhaliq reportedly had difficulties completing the required repairs due to security problems.
In response, USACE de-scoped the remaining work from its contract with Zafarkhaliq on December 1, 2012,
and released the company from any further contractual obligations. 7
On December 30, 2012, USACE awarded a third contract for $631,956 to Gharany Group, an Afghan firm, to
make final repairs at all three facilities. However, based on a January 8, 2013, decision memorandum, which
outlined USAID’s frustration with project delays, USAID decided to de-scope the PAPA with USACE and
instructed USACE to cancel the award to Gharany Group and refund any unused funds to the agency. 8 At the
time the PAPA was terminated, USAID officials estimated the three facilities were 95 percent completed and
they each required additional electrical, plumbing, and construction repairs before turnover to Afghan
authorities.
USAID has made two attempts to award a contract for repairs for the three facilities under its Vertical
Structures Indefinite Quantity Contract. 9 USAID received no response to its first Request for Task Order
Proposals (RFTOP), so it amended and reissued the RFTOP with a revised scope of work and a due date of April
18, 2013. USAID received one response, which was evaluated by a technical evaluation committee and
deemed insufficient on price and technical grounds. USAID issued its second RFTOP on July 1, 2013, and



5   The January 2012 contract for repairs at the Balkh facility was valued at $98,000.
6 Zafarkhaliq identified needed electrical repairs at the Fayrab site and brought this to USACE’s attention. USACE

responded by issuing a Request for Proposal to Zafarkhaliq to submit a bid for making needed repairs at all three sites.
Zafarkhaliq’s bid was deemed too costly by USACE and the decision was made to de-scope the remaining work from
Zafarkhaliq’s contracts and issue a new contract to include a more complete scope of electrical repairs.
7In our July 2013 report, we recommended that USACE determine, and report the results to SIGAR, the reasons why the two

contractors (Mercury and Zafarkhaliq) were released from their contractual obligations despite poor performance,
unfinished construction, and electrical problems and determine appropriate actions, if any, against the contracting
officer(s) responsible for making these decisions. In October 2013, USACE responded to these recommendations in a letter
to SIGAR, stating that the “Mercury contract termination took into account all known deficiencies, but did not take into
account any unknown deficiencies.” USACE added that the contract with Mercury was terminated through a contract
modification, which descoped the remaining contract work, included a credit to the government for this descoped work,
and assessed liquidated damages against the contractor in accordance with contract terms. USACE also stated in its letter
that, during performance of the follow-on contract, Zafarkhaliq submitted a proposal to correct deficiencies in the facility
wiring, but proposed a price that was unreasonably high. According to USACE, Zafarkhaliq completed most of the other
work required under its contract and, therefore, its contract with USACE was “appropriately terminated…for convenience.”
Finally, USACE wrote that “based on the information known at the time, taking into consideration guidance from [project
delivery team members], and exercising business judgment; [sic] Contracting Officers made appropriate decisions in
administering the Sheberghan contracts.” As such, USACE determined that “no disciplinary action is required.”
8   USAID reported that it recouped about $1.4 million from USACE as a result of this action.
9 USAIDs’ Vertical Structures Indefinite Quantity Contract is a standing contract vehicle the agency established to facilitate

rapid turnaround awards for certain classes of procurements, which tend to be of limited duration, dollar value, and scope.
This contracting vehicle, in place since November 2012, has five pre-qualified contractors—both Afghan and non-Afghan
contractors—who can provide a range of construction services on relatively short notice.



SIGAR Inspection 14-24-IP/Balkh Education Facility                                                                     Page 2
received two responses, which were deemed unacceptable by a technical evaluation committee on the grounds
of price.
USAID revised its procurement strategy to pursue a sole source award with one of five pre-qualified firms under
its Vertical Structures Indefinite Quantity Contract to help expedite completion of the facilities. On November 2,
2013, USAID’s contracting officer issued an RFTOP to one of the pre-qualified firms. This firm was to submit a
bid based on site inspections, contract documents from the previous USACE contracts, and recent inspection
reports prepared by USAID’s quality assurance contractor. The RFTOP requested that the pre-qualified firm
bring all three sites into 100 percent compliance with all design and contract requirements. USAID’s RFTOP
also provided estimates of $1 million-$2 million as a target range for a final negotiated price. 10 Per the Federal
Acquisition Regulation (FAR 15.404-1), USAID’s contracting officer noted that a price analysis of the proposed
contractor’s offer would be made as part of the contract negotiations process to ensure that any final
negotiated price is both fair and reasonable. On November 17, 2013, the proposed contractor reportedly
responded with an initial bid within the target range. USAID expects to conclude contract negotiations by the
end of 2013, and have all work completed within 6 months of the contract award.


BALKH FACILITY WAS NOT CONSTRUCTED IN ACCORDANCE WITH CONTRACT
REQUIREMENTS, AND DEFICIENCIES REMAIN TO BE CORRECTED

Nearly 5 years after construction began, a number of major and minor repairs remain to be made at the Balkh
facility. USACE and USAID identified a number of significant deficiencies, which we also found during our
inspection. These deficiencies include, among others:
     •    Numerous leaks in the existing flat roof 11 that have become evident, exhibited by paint peeling off the
          ceiling in most of the second floor classrooms (see photo 2).

     •    An incomplete electrical system, 12 which has numerous deficiencies and code violations.

     •    A second floor terrace that slopes toward the classroom door, requiring an improvised dam to stop
          rainwater from flowing into the classroom (see photo 3). A roof downspout that empties onto the
          terrace worsens the problem by adding roof runoff.




10 USAID’s contracting officer noted that this price range significantly exceeds the value of USACE’s last award for repairs

due to a number of factors. First, the scope of work has been expanded from specific repair items to 100 percent
compliance with all contract terms and design requirements. Second, the range is more in line with bids received on
USAID’s two earlier RFTOPs. Third, the proposed contractor is a U.S. based firm and is expected to have higher mobilization
and operating costs than an Afghan firm.
11 USACE approved a roofing system consisting of bitumen fabric adhered to the flat concrete roof, eight inches of rigid

styrofoam insulation, a single layer of thin clear polyethylene plastic sheeting, a graded sand layer sloped to drain water to
the downspouts, and a top layer of ceramic tiles.
12 The electrical system remains incomplete because the facility has not yet been connected to the local power grid, as

required under the contract’s original scope of work. This will require a significant amount of work and materials, including
a transfer switch, transformer, power/utility poles, and overhead transmission lines. After the facility is connected to the
local power grid, Afghan authorities will have the option to obtain electricity from the local utility at a lower cost than using
diesel fuel to power the facility’s generator, while having the flexibility to use the generator should local power not be
available on a particular day or a given time of day.



SIGAR Inspection 14-24-IP/Balkh Education Facility                                                                        Page 3
Photo 2 - Paint Peeling off Classroom Ceiling                    Photo 3 - Improvised Dam on Sloping Roof Terrace




Source: SIGAR, October 19, 2013.                                 Source: SIGAR, October 19, 2013.

Correction of the deficiencies described above is expected to be included in USAID’s anticipated procurement
action for completion of the facility. However, our October 2013 site inspection also revealed several additional
deficiencies, which are not included in USAID’s pending procurement action. For example, we found that:


    •    Sewer lines crossing over the top of water            Photo 4 - Access Point to Septic Tank
         lines could contaminate the water supply
         and are not consistent with contract
         requirements.

    •    Irregular riser heights on the exterior
         stairs pose a safety hazard and do not
         comply with the contract’s technical
         requirements. 13

    •    Magnetic ballasts, 14 which maintain
         current flow within acceptable limits, were
         installed with all fluorescent light fixtures,
         rather than more efficient electronic
         ballasts required by the contract’s
         technical requirements.
                                                               Source: SIGAR, October 19, 2013
    •    Neither of the access points to the septic
         tank has a solid cast iron cover or
         permanent ladder, as required by the contract (see photo 4).



13 Ingress and egress requirements dictate that riser heights should not exceed seven inches, and the variation between

riser heights should not exceed 3/8 of an inch. We found that the exterior stairs at the facility exceed both requirements.
14 A ballast regulates, or limits, current through the lamp by impeding the current flow to the lamp. Electronic ballasts are

more efficient, start more quickly, run cooler, are lighter, and cause less flickering of light than magnetic ballasts.



SIGAR Inspection 14-24-IP/Balkh Education Facility                                                                      Page 4
       •    No access road to the front of the building exists, as required in the contract. The facility also does not
            have a gravel road to allow heavy trucks to access the fuel tanks, generator, and septic tank, as
            required by the contract.


Complete Structural Calculations for Roof and Septic Tank Could Not be Located
USACE did not provide any documentation during the course of our inspection to demonstrate that complete
and accurate structural calculations for the roof or septic tank were developed to show that these structures
can sustain expected loads. The absence of such calculations raises potential health and safety concerns
because USAID lacks adequate assurance that these structures will not collapse at some point in time. Original
design plans called for a pitched roof using steel trusses with standing seam metal roofing, rather than a flat
reinforced concrete roof. USACE and USAID officials were unable to explain the basis or rationale for this
design change. USAID’s current scope of work for repairs calls for the ceramic tile roof surface to be sealed
with a two-ply bituminous sheeting system, referred to as a built-up roof.
USACE officials assured us they have provided all of the design documents related to the structures to USAID.
However, our review of available records revealed that, as of the last correspondence regarding structural
designs on May 8, 2011, USACE’s original contractor had not submitted, and USACE had not reviewed,
complete structural calculations for the roof or the septic tank. By May of 2011, work on both of these
structures had progressed beyond the point at which a design, if found inadequate, could have been easily
modified. Because complete structural calculations were never developed or provided by USACE, USAID has
taken over a project that may not comply with code requirements and for which the risk to life and property is
still unknown.
Although USACE did ensure that detailed plans were developed for structural work on the building, the plans
had numerous errors and inconsistencies and complete calculations for the building were never provided or
approved by USACE. Calculations were provided by the contractor at the 35-percent submittal stage; however,
our professional engineer determined the calculations were inaccurate and incomplete. Specifically, the loads
used to represent the reinforced concrete roof slab were less than required based on the design drawings, and
there were no calculations showing that the roof slab could safely span the 19 feet called for in the plans.
Similarly, no structural calculations for the septic tank were ever provided or approved by USACE. The septic
tank is a significant concrete structure with inside dimensions of 23 feet wide by 46 feet long, with 8-foot high
walls. An efficient design for an underground structure of this size would likely result in one-three feet of soil
cover rather than the seven feet of cover as constructed. Without structural calculations it is impossible to
determine whether the septic tank can withstand the combination of loads imposed on it. 15
In commenting on our draft report, USAID disagreed with our comments that the roof and septic tank may be
structurally unsound based on the lack of complete and accurate calculations demonstrating the ability to
withstand expected loads. USAID noted that it received and evaluated new information from USACE following
the release of our draft report showing that USACE had approved final structural calculations, and USAID’s
engineer had found no reason to conclude that the structures were unsound. We will follow up with USAID to
obtain and review the new information provided by USACE to determine its implications for our findings and
related recommendation.


BALKH FACILITY IS CURRENTLY UNUSED DUE TO ITS UNFINISHED CONDITION

We found that the Balkh facility had been partially occupied since March 2013. The Director of Education
Faculty—the senior Afghan official with oversight responsibility for the facility—informed us that he had made



15   These loads would include the weight of a truck, the soil, and the concrete itself.



SIGAR Inspection 14-24-IP/Balkh Education Facility                                                               Page 5
repeated requests to USAID officials to expeditiously complete the facility and that he was never informed by a
U.S. government official that the facility should not or could not be occupied pending final repairs. 16 In our
briefing to USAID officials on the results of our October 2013 inspection, we informed them that the director
told us the facility had been partially occupied. USAID subsequently issued a notice to the Ministry of Higher
Education on November 16, 2013, to vacate the facility pending final repairs and the official transfer of the
building to Afghan authorities. 17
A commitment by Afghan authorities to maintain the facility after project turnover is key to the long-term
sustainability of the facility. USAID officials noted that the Ministry of Higher Education confirmed in writing on
January 9, 2008, that it would be responsible for maintenance of these facilities. 18 USAID officials noted that
an Implementation Letter will also be provided to Afghan authorities when the Balkh facility is completed and
official transfer takes place. This letter will include USAID’s estimate of what it will cost to operate and maintain
the facility, and the letter will note the agency’s expectation that Afghan authorities will provide a sufficient
budget to cover these expenses.
The director of the Balkh facility indicated he would like to run three shifts of students each day—a morning,
afternoon, and evening session. In addition, the director noted that if a portion of the facility is not equipped
with air conditioning, it will be impossible, in his opinion, to hold classes during the hottest months of the year.
USAID officials explained that they do not consider air conditioning a necessity and will not include this
expense in their upcoming scope of work. However, the USAID officials noted that Afghan authorities could later
decide to consider this idea and its cost implications.
USAID’s decision to not provide air conditioning is consistent with the “austere” standards approach to
construction used by the NATO Training Mission-Afghanistan/Combined Security Transition Command-
Afghanistan for Afghanistan National Security Forces buildings. 19 As discussed in earlier SIGAR reports, 20 this
standard endorses the use of construction standards and systems that are best adapted to conditions in
Afghanistan and the reality of how completed facilities will be used and maintained. One USACE official familiar
with the Faculties of Higher Education project told us that the Corps advised USAID, after construction had
begun, to consider constructing the facilities to more austere standards by using, for example, easier to
maintain wood burning stoves instead of electric heating units and increasing the window size to allow the use
of natural light instead of overhead fluorescent lightening. USAID officials noted that while such ideas may or
may not have had merit in this particular case, it was USACE that developed and implemented the project on
USAID’s behalf and that once construction began, it would have been too late to introduce such concepts into
each building’s design.




16 USAID officials dispute this claim. According to them, during a May 2013 site inspection conducted by the agency, one of

their representatives informed the director that no one should be using the buildings and instructed that the buildings be
vacated until they were completed and officially turned over to the Afghan government.
17 This letter also requested that the Ministry of Higher Education vacate the Faryab facility, which was also being used by

faculty and students.
18   This certification is required by the Foreign Affairs Assistance Act, Section 611(e).
19 See NATO Training Mission-Afghanistan/Combined Security Transition Command-Afghanistan guidance on the Small

Facility Sustainable Design Program, issued October 31, 2013.
20 For example, see ANA Facilities at Mazar-e-Sharif and Herat Generally Met Construction Requirements, but Contractor

Oversight Should Be Strengthened, SIGAR Audit-11-9, April 25, 2011.



SIGAR Inspection 14-24-IP/Balkh Education Facility                                                                    Page 6
CONCLUSION

Nearly 5 years after construction began, the Balkh facility for USAID’s Faculty of Higher Education project is still
not complete and remains unusable. The facility needs multiple repairs and its transfer to Afghan authorities
will not occur until July 2014, at the earliest. Frustrated by the delays, Afghan authorities occupied the facility
without authorization in March 2013, but USAID has since taken steps to secure the facility and ensure it is not
occupied until it is officially transferred to the Afghan government. USAID acknowledged that repairs are
needed at the Balkh facility and is currently working to secure a contract to correct them. SIGAR has identified
additional repairs—encasing sewer lines in concrete, adjusting non-code compliant exterior steps, installing
required cast iron covers and permanent ladder steps for the septic tank, and installing the required access
road to the front of the building—that we believe should be addressed in USAID’s pending procurement action.
Further, critical structural calculations could not be located during our audit for the roof and septic tank
systems—a significant oversight given the potential catastrophic consequences of a roof collapse or a collapse
of the septic tank system.


RECOMMENDATIONS

To help ensure that the facility meets the needs of faculty and students and all applicable safety requirements,
and to protect the U.S. government’s investment, we recommend that the USAID Mission Director,
    1. Expand the scope of work for the pending procurement action to address the deficiencies identified by
       SIGAR.
    2. Develop roof and septic tank structural calculations based on the construction documents, progress
       photos, and quality assurance reports, to determine whether these building components comply with
       the required 2003 International Building Code and whether they adequately protect life and property.
       We further requested that USAID report back to SIGAR within 90 days with the results of this analysis
       and any planned corrective actions.


AGENCY COMMENTS

USAID provided written comments on a draft of this report, which, along with our responses, are reproduced in
appendix II. USACE did not provide comments.
USAID concurred with our first recommendation that it expand the scope of work for the pending procurement
action to include the construction deficiencies identified by SIGAR.
USAID did not concur with our second report recommendation. USAID stated that it received new information
from USACE on January 9, 2014, after we released our draft report, indicating that final structural calculations
were included in the 35-percent design submittal and that these calculations were approved by USACE at that
time. USAID also noted that the agency had assigned a professional engineer to review these structural
calculations and design drawings. While USAID’s engineer acknowledged that USACE’s plans and calculations
did appear to contain some conflicts and discrepancies, he could find no compelling reason to conclude that
new structural calculations should be performed—a task USAID believes would be very time consuming and
costly. Finally, USAID stated that we had not presented sufficient evidence to suggest that the Balkh Education
Facility has shown any signs that it lacks structural integrity. We request that USAID provide a copy of the new
information it received from USACE, which we will carefully review to determine the extent to which it satisfies
the intent of our second recommendation.




SIGAR Inspection 14-24-IP/Balkh Education Facility                                                           Page 7
APPENDIX I - SCOPE AND METHODOLOGY

This report provides the results of an inspection of the Mazar-e-Sharif Faculty of Higher Education facility in
Balkh province. To determine whether (1) the construction was completed in accordance with contract
requirements and applicable construction standards, and (2) the facility is was being used as intended and
maintained, we:


     • reviewed contract documents, design submittals, and other relevant project documentation;
     • interviewed cognizant U.S. and Afghan government officials concerning the facility’s construction; and
     • conducted a physical inspection and photographed the project site to observe the current status and
       the quality of construction.


We conducted this inspection at Kabul and the Balkh facility from March through November 2013. This work
was conducted in accordance with the Quality Standards for Inspection and Evaluation, published by the
Council of the Inspectors General on Integrity and Efficiency. The engineering assessment was conducted by a
professional engineer in accordance with the National Society of Professional Engineers’ Code of Ethics for
Engineers. We did not rely on computer-processed data in conducting this inspection. However, we considered
the impact of compliance with laws and fraud risk.
We believe that the evidence obtained provides a reasonable basis for our findings and conclusions based on
our inspection objectives. We conducted this inspection under the authority of Public Law No. 110-181, as
amended and the Inspector General Act of 1978, as amended; and in accordance with the Quality Standards
for Inspection and Evaluation, published by the Council of the Inspectors General on Integrity and Efficiency.




SIGAR Inspection 14-24-IP/Balkh Education Facility                                                          Page 8
APPENDIX II - COMMENTS FROM THE U.S. AGENCY FOR INTERNATIONAL
DEVELOPMENT




           @ ~l~~JQ IAFGHANISTAN
                MEMORANDUM                                                                   January 15. 20 1-1-


                TO:                John F. Sopko
                                   Special Inspector General l'or
                                   Aighani stall Reconstruct ion (S IGA R)                    ,I           ~

                FROM:              William l lul1ll11ink. Mission              Dil'cctor ~

                SUI3JECT: Omn SIGAl( Report enlillcd "Balkh EdUCalion Facilil)':
                                   Building Remain s Unfinished and Unsa fe to Occupy                        ancr
                                   Nearly 5 Ycars" (S IGA R Inspection 14-XX-IP)

                REF :              S IGAR Transmillul ema il dated 0 1/01 /20 14

                Tha nk you lor providing USA ID with the opportu nity to review the
                SIGAR dran Ins pection Report titled. " l3alkh Education Facility:
                Building Remains Unfin ished and Unsafe 10 Occupy after Nearly 5
                Years:" USA ID expresses appreciation to SIGAR 1'01' work ing
                coliabol'mivcJy and coopcmtivc ly with USA ID perso nnel. The technical
                meetings und exchange of information were helpful in in creasing
                understanding o rl he repa irs needed lo r the unfini shed Balkh racilit y.
                Di scu ssed below <lfe our co mmcnt s o n thc lindings and recomlllcndations
                in the report.

                COMM ENTS ON SIGAR 's FI NDI NGS

                US AID ng rees with the Introduction <111<.1 Backg round sectio ns and
                appreciates that S IGAR W(lS thorough in the descripti o n or th ~ hi sto ry 01"
                the fi.1Cili ty invo lving project implementation by the Un ited States Army
                  OI1)S of Engi neers (USACE) and USA ID p lans fo r completi on or the
                three unlini shcd fi.lcil ities. USA I D also app rec iates the ack now ledgement
                thut it wns able to recoup a s ubs tantial amoun t 0 1" limding as a resu lt of its
                actions. as identili cd in fOolnot~ 8 in the S IGAR's d raf1 report.

                As SIGAR s tated in the DraH Rcpon . the l3 alk h Education Facilit y is
                unlini shed. USA ID wi ll address th e d e lici~ncie s identified in thc report in
                the con tract for final repair work . which is expected to be awarded with in

                                                            Tel. 202·216·628810700-108-001
               u.s Agency IOf Inlern.l!JOnal DeIIeIopmenI   ema~   kaNuyj!ll'llo!mjlljpoCltllYiO goY
               Greal Musood ROad                            b!1o llafgl\too,!an I'Md Q9Y
               l<.Ibul. AIglww$13n




SIGAR Inspection 14-24-IP/Balkh Education Facility                                                                  Page 9
                                                     See SIGAR
                                                     comment 1.




SIGAR Inspection 14-24-IP/Balkh Education Facility                Page 10
                                                     See SIGAR
                                                     comment 2.




SIGAR Inspection 14-24-IP/Balkh Education Facility                Page 11
              SIGAR’s Response to Comments from the U.S. Agency for International Development

1. We believe this language is accurate based on information made available to SIGAR during the course of
   our inspection.

2. We request that USAID provide a copy of the new information it received from USACE. We will review this
   information to assess the extent to which it satisfies our second recommendation.




SIGAR Inspection 14-24-IP/Balkh Education Facility                                                   Page 12
APPENDIX III - ACKNOWLEDGEMENTS

Scott Harmon, Senior Inspections Manager
Michael ten Kate, Inspector-in-Charge
Ron Riach, Professional Engineer




SIGAR Inspection 14-24-IP/Balkh Education Facility   Page 13
                                       This inspection report was conducted
                                         under project code SIGAR-I-006P




SIGAR Inspection 14-24-IP/Balkh Education Facility                            Page 14
                               The mission of the Special Inspector General for Afghanistan
           SIGAR’s Mission     Reconstruction (SIGAR) is to enhance oversight of programs for the
                               reconstruction of Afghanistan by conducting independent and
                               objective audits, inspections, and investigations on the use of
                               taxpayer dollars and related funds. SIGAR works to provide accurate
                               and balanced information, evaluations, analysis, and
                               recommendations to help the U.S. Congress, U.S. agencies, and
                               other decision-makers to make informed oversight, policy, and
                               funding decisions to:
                                        •   improve effectiveness of the overall reconstruction
                                            strategy and its component programs;
                                        •   improve management and accountability over funds
                                            administered by U.S. and Afghan agencies and their
                                            contractors;
                                        •   improve contracting and contract management
                                            processes;
                                        •   prevent fraud, waste, and abuse; and
                                        •   advance U.S. interests in reconstructing Afghanistan.


  Obtaining Copies of SIGAR    To obtain copies of SIGAR documents at no cost, go to SIGAR’s Web
                               site (www.sigar.mil). SIGAR posts all publically released reports,
   Reports and Testimonies     testimonies, and correspondence on its Web site.




                               To help prevent fraud, waste, and abuse by reporting allegations of
To Report Fraud, Waste, and    fraud, waste, abuse, mismanagement, and reprisal, contact SIGAR’s
      Abuse in Afghanistan     hotline:
   Reconstruction Programs              •   Web: www.sigar.mil/fraud
                                        •   Email: sigar.pentagon.inv.mbx.hotline@mail.mil
                                        •   Phone Afghanistan: +93 (0) 700-10-7300
                                        •   Phone DSN Afghanistan 318-3912 ext. 7303
                                        •   Phone International: +1-866-329-8893
                                        •   Phone DSN International: 312-664-0378
                                        •   U.S. fax: +1-703-601-4065




              Public Affairs   Public Affairs Officer
                                        •   Phone: 703-545-5974
                                        •   Email: sigar.pentagon.ccr.mbx.public-affairs@mail.mil
                                        •   Mail: SIGAR Public Affairs
                                            2530 Crystal Drive
                                            Arlington, VA 22202
